SEMIANNUAL REPORT
to the United States Congress




                        April 1, 2013–September 30, 2013
                                            Report # 48
Amtrak Exhibit train (celebrating veterans) pulls the Empire Builder over Gaynor Trestle bridge in Berne, WA
                                                                                     Photo: Steve Ostrowski
Table of Contents
From the Inspector General                                                         i
OIG Profile                                                                       1
Significant Activities: Audits, Inspections and Evaluations, and Investigations   5
Actions to Continuously Improve OIG Operations                                    24
OIG Organization                                                                  27
Appendices
    Appendix 1      Fiscal Year 2013 Performance Measures                         30
    Appendix 2      Questioned Costs (Audits)                                     31
    Appendix 3      Funds Put to Better Use (Audits)                              32
    Appendix 4      Audit and Evaluation Reports and Testimony                    33
    Appendix 5      Recommendations for Which Corrective Action Not
                    Complete (Audits)                                             35
    Appendix 6      Recommendations for Which Corrective Action Not
                    Complete (Evaluations)                                        38
    Appendix 7      Review of Legislation, Regulations, and Major Policies        40
    Appendix 8      Peer Review Results                                           41
    Appendix 9      Glossary of Terms, Acronyms, and Abbreviations                42
    Appendix 10     Reporting Requirements Index                                  44
OIG Mission and Contact Information                                               45
           Capital Limited at Fairhope, PA
Photo: Amtrak Corporate Communications
                          From the Inspector General




                    National Railroad Passenger Corporation
                          Office of Inspector General


I am pleased to provide the Amtrak Office of Inspector General Semiannual Report to the
United States Congress for the six months ending September 30, 2013, pursuant to the
Inspector General Act of 1978, as amended. This report highlights our significant
accomplishments in audits, evaluations, and investigations to help Amtrak accomplish
its strategic goals and support congressional oversight.

Event Highlights
Over the last six months, our office has produced high-quality work that provides
independent and objective oversight of Amtrak. However, before I summarize our key
accomplishments, I want to highlight some significant events of this reporting period.

First, I want to welcome back Tom Carper who rejoined the Board of Directors in
August 2013 for a second five-year term. I look forward to continuing our positive
working relationship.

Second, after a long effort, our investigative office received approval from Attorney
General Eric H. Holder, Jr., to exercise statutory law enforcement powers in accordance
with the Inspector General Act and the Attorney General Guidelines for Offices of
Inspector General. This authority allows our agents to exercise law enforcement duties,
including carrying firearms while engaged in official law enforcement duties, making
arrests without warrants, seeking and executing warrants for arrest and search of
premises, and seizing evidence.

Last, I am pleased to report that our audit and evaluation offices are being recognized
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) at its
annual awards program. CIGIE is recognizing our audit office for its sustained efforts
that identified more than $91 million in overpayments to host railroads and resulted in
significant improvements to Amtrak’s invoice-review process. In addition, our
evaluation office is being recognized for a significant achievement, alerting
management to a potential threat to public safety—the rising use of drugs and alcohol


                            10 G Street, NE, Suite 3W-300, Washington, DC 20002
From the Inspector General



   by employees in safety-sensitive positions—and for prompting necessary corrective
   action.

   Key Accomplishments
   Over the last six months, our audit, evaluation, and investigative offices continued to be
   productive. We issued 9 audit and evaluation reports with 50 recommendations,
   including financial recommendations totaling more than $53 million. Our investigative
   work resulted in 3 indictments, 7 convictions, more than $1 million in restitution and
   recoveries, and $1.1 million each year in cost avoidance. Here are some examples of our
   work in different areas.

           We continued to focus on helping the corporation improve corporate governance.
            To that end, our evaluation office found that Amtrak’s initial changes to the
            capital planning process were generally consistent with sound business practices,
            but the process could be further improved if management follows other
            practices, such as developing sound business cases. We observed some projects
            in which Amtrak did not develop sound business cases, resulting in schedule
            delays and other problems that potentially cost the company up to $155 million
            in lost revenue and unrealized cost reductions.

           Also in the governance area, we issued the first two of a series of audits using a
            data analysis software tool that allows us to analyze 100 percent of transactions
            for given timeframes, rather than sampling. Our first review centered on
            identifying duplicate payments—when a vendor is paid more than once for the
            same goods and/or services—and the causes of these payments. Based on our
            analysis, Amtrak recovered or is in the process of recovering $1.9 million in
            duplicate payments and is reviewing another $4.8 million in potential duplicates.
            We also reviewed the use of company credit cards (procurement cards) and
            found that, with a few exceptions, the policies and procedures in place seemed
            effective at controlling the use of these cards.

           In acquisition and procurement, an investigation found that some Amtrak
            managers responsible for arranging employee lodging did not always follow the
            best practice recommendations from the lodging management firm. Management
            estimated that following those recommendations could save about $1.1 million
            per year.

   ii
                                                  From the Inspector General



      In information technology (IT), we found that Amtrak’s acquisition of IT services
       achieved some of the expected program results, but the IT department could
       have more effectively planned and managed its acquisition approach, better
       administered the contracts, and held the contractors more accountable for
       meeting contract terms. In that report, we also identified up to $27 million in
       potential savings through the end of the contract and $4.4 million in payments
       that could have been avoided with closer management attention.

      In asset management, we previously reported that a joint investigation with the
       Amtrak Police department revealed that five Amtrak employees stole
       communications wire valued at more than $100,000 and resold it to recycling
       companies. All five individuals pled guilty in federal court, are serving varying
       sentences, and were ordered to make restitution to Amtrak. The individuals are
       no longer employed by Amtrak.

During this reporting period, we maintained a high level of productivity despite
unexpected challenges, including the budget reductions mandated by sequestration and
an increase in employee benefit costs. When this occurred, we decided that the best
course of action was not just to get through FY 2013, but also to be prepared for a
similar budget environment in FY 2014. Therefore, we right sized the office to reflect
current budget realities, while ensuring we can continue to perform our mission and
achieve our goals.
We will continue to identify ways to operate more economically and efficiently. At the
same time, we will work to help Amtrak meet its stewardship responsibilities and
support Congress in its oversight responsibilities. As Amtrak Inspector General, this is
my commitment to you.




Ted Alves
Inspector General


                                                                                           iii
        Missouri River Runner at Kirkwood, MO
     Photo: Amtrak Corporate Communications




iv
OIG Profile
Authority, Mission, Vision, and
Focus Areas
Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3), as
amended in 1988 (P.L. 100-504), established the Office of Inspector General (OIG) for
Amtrak to consolidate investigative and audit resources into an independent
organization headed by the Inspector General to promote economy, efficiency, and
effectiveness; and to detect and prevent fraud, waste, and abuse. Subsequently, the
Inspector General Reform Act of 2008 (P.L. 110-409) amended and strengthened the
authority of the inspectors general.

Mission
To provide independent, objective oversight of Amtrak’s programs and operations
through audits, inspections, evaluations, and investigations focused on recommending
improvements to Amtrak’s economy, efficiency, and effectiveness; preventing and
detecting fraud, waste, and abuse; and providing Congress, Amtrak management, and
Amtrak’s Board of Directors with timely information about problems and deficiencies
relating to Amtrak’s programs and operations.

Vision
Amtrak OIG will operate as a model OIG, generating objective and sophisticated
products that add value. Utilizing modern infrastructure and effective support systems,
and following efficient, disciplined processes that meet the standards of the
accountability community, our diverse and talented team will work professionally with,




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   1
OIG Profile



   but independently from, Amtrak management (See OIG Strategic Plan Fiscal Years 2013-
   2017).1

   Focus Areas
   We concentrate our work in audits, inspections and evaluations, and investigations on
   eight focus areas. Depending on the work completed during a semiannual period, we
   may report on issues in one or more of these focus areas listed below.2

   Governance. This includes a system of management controls—including policies,
   processes, and people—which serves the needs of shareholders and other stakeholders
   by directing and controlling management activities with good business savvy,
   objectivity, accountability, and integrity.

   Acquisition and Procurement. These activities include procurement policies,
   procedures, and practices across acquisition and procurement phases of planning,
   project selection, and contract award, implementation, and closeout.

   Information Technology. IT management encompasses processes, policies, and
   procedures to acquire and use IT tools to improve labor and asset productivity and
   deliver safe and reliable customer service.

   Train Operations and Business Management. These activities are associated with
   operating Amtrak’s passenger service, including delivering safe and cost-effective
   service.

   Human Capital Management. This encompasses the development and implementation
   of human capital policies, procedures, and practices across the corporation.




   1
     OIG-SP-2013-017, Strategic Plan Fiscal Years 2013-2017,
   http://www.amtrakoig.gov/sites/default/files/reports/strategic_plan2.pdf
   2
     For complete definitions of these focus areas, see Annual Audit and Inspections and Evaluations Plan FY 2013.
   http://www.amtrakoig.gov/sites/default/files/reports/aie_plan_final_oct22.pdf.
   2          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
Safety and Security. These programs and activities are related to the safety and security
of employees and the train-riding public.

American Recovery and Reinvestment Act of 2009. We provide oversight of all
activities that benefited from the $1.3 billion grant from the Federal Railroad
Administration. We are providing Congress with information on Amtrak’s use of these
funds; we will complete our ongoing work in this focus area during the next
semiannual period.

Asset Management. These activities are related to the utilization and maintenance of
Amtrak’s assets, including train sets, support equipment, inventory, and real property.




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   3
                                                                                       Capitol Limited at Mance, PA
                                                                           Photo: Amtrak Corporate Communications




4   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                           Significant Activities




Significant Activities:
Audits, Inspections and
Evaluations, and Investigations
During this reporting period, we issued five audit reports,
four evaluations, and provided 29 investigative summaries to
management. During the next six months, we expect to
complete work in a number of our work focus areas. (To see the
full audit and evaluation reports, access our website,
www.amtrakoig.gov.)


Governance
Corporate Governance: Planned Changes Should Improve Amtrak’s Capital
Planning Process, and Further Adoption of Sound Business Practices Will Help
Optimize the Use of Limited Capital Funds
(Evaluation Report No. OIG-E-2013-020, September 27, 2013)
Amtrak’s initial changes to the capital planning process are generally consistent with
sound business practices used by other organizations, and those changes should
improve its process. However, the process could be further improved if management
fully adopts sound business practices in developing business cases, selecting projects
for funding, and evaluating project outcomes.

We reviewed five capital projects and observed that when Amtrak developed sound
business cases, projects generally met their intended outcomes. However, when these
practices were not followed, we observed schedule delays and other problems that
potentially cost Amtrak up to $155 million in lost revenues and unrealized cost
reductions. Additionally, Amtrak has not consistently used sound business practices to
objectively review and rank proposed capital projects making it difficult to ensure that
     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   5
Significant Activities



   it is selecting the projects that best support its strategic objectives. Moreover, Finance
   department officials told us that Finance lacks the resources to evaluate the status of
   ongoing projects or the outcome of completed projects, as required by the Capital
   Programming policy. In one case, this enabled an official to commit the company to
   about $50 million more than was approved by the Board of Directors on a project for
   installing Positive Train Control on the Northeast Corridor.

   To assist management’s ongoing efforts to improve the company’s capital planning
   process, we recommended that Amtrak take a number of actions to build the capability
   to fully implement the sound business practices described in this report. Amtrak’s
   President and Chief Executive Officer stated that implementation of our
   recommendations should significantly improve the capital allocation process. He added
   that the OIG’s work will allow Amtrak to ensure it makes the best possible use of
   constrained capital investment dollars in years to come.

   Governance: Most Procurement Card Controls are Effective, but Some Need to be
   Strengthened
   (Audit Report No. OIG-A-2013-019, September 26, 2013)
   Procurement Cards (company credit cards or PCards) are an inherently risky method
   for purchasing due to the highly decentralized nature of the transactions, the number of
   cardholders, and the amount of activity. We used a data analysis software tool to
   analyze 100 percent of PCard purchases for the 22‐month period ending March 2013.
   During this period, PCard holders made approximately 48,000 transactions to procure
   about $17.2 million of goods and services.

   We found that the Finance department established policies and procedures for
   controlling the use of PCards that, with a few exceptions, appear to be effective based
   on the level of compliance by employees. Areas where controls can be strengthened
   include:

          Split Transactions and Circumvented Single Purchase Limits. 142 employees
           potentially split purchases totaling about $1.2 million into 2 or more separate
           purchases—circumventing the single purchase limit.

          Single and Monthly Purchase Limits Exceeded. 78 employees exceeded their
           single purchase limit 551 times, spending about $569,000 over their authorized

   6         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                             Significant Activities



        limits; 45 employees exceeded monthly purchase limits 82 times, spending about
        $384,000 over their authorized limits.

       Unauthorized Purchases. We identified about $130,000 of potentially
        unauthorized purchases.

       Unused Cards Were Not Canceled. 126 PCards with the new service provider
        had no activity for more than 6 months.

       Employees With Higher Purchase Limits Than Requested. 53 employees had
        purchase limits higher than the amounts they requested.

       Uncertain Continued Need for a PCard. 52 employees who changed positions
        did not surrender or request continuation of their PCard.

We recommended the Acting Chief Financial Officer direct the Amtrak Controls group
to assess the adequacy of PCard processes to address these issues. Management
responded that it plans to assess the adequacy of PCard controls as part of its
implementation of a management control framework. During that process,
management stated the Controls group will work with PCard process owners to deploy
solutions, where appropriate, and implement routine monitoring of payment controls
using data analytics similar to those developed by the OIG. We will provide the data
analytics testing tools we developed for this review to the Finance department for its
use.

Governance: Enhanced Controls Needed to Avoid Duplicate Payments
(Audit Report No. OIG-A-2013-018, September 20, 2013)
From October 2005 through June 2013, the Amtrak Finance department processed
1.9 million transactions valued at $14.1 billion. Given the large value of transactions,
sound payment processes are necessary to avoid duplicate invoice payments. A
duplicate invoice payment occurs when a vendor is paid two or more times for the
same goods and services.

We used a data analysis software tool to analyze 100 percent of the Finance
department’s invoice payment data from October 2005 through June 2013. Using the
results of our analysis, Finance department staff recovered or are in the process of
recovering about $1.9 million in duplicate invoice payments and are reviewing another
       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   7
Significant Activities



   $4.8 million in potential duplicate invoices we identified. We reviewed 25 duplicate
   invoice payments valued at $533,988 and identified four major causes: (1) Accounts
   Payable personnel processed known duplicate payments despite system warnings,
   (2) the payment system included multiple codes for the same vendor that could not be
   detected by the automated controls, (3) Accounts Payable personnel did not ensure
   invoice numbers were accurate, and (4) the payment process allows vendors to submit
   invoices to Accounts Payable and other offices.

   The Acting Chief Financial Officer agreed with our recommendations to (1) apply cost
   and benefit criteria in seeking recovery of the $4.8 million in potential duplicate
   invoices; and (2) direct the Amtrak Controls group to assess the adequacy of vendor
   payment process controls and take corrective actions, as appropriate. The Acting Chief
   Financial Officer also stated that by the end of November 2013, they will review all
   potential duplicate invoices greater than $25,000 within the $4.8 million identified by
   the OIG to identify true duplicates and collect from vendors, where possible.
   Additionally, management stated the Controls group would work with the Accounts
   Payable process owners to implement routine monitoring of duplicate payment
   controls. We will provide the data analytics testing tools we developed for this review
   to the Finance department for its use.

   Theft of PCard Information from Amtrak Employee
   July 2013 (Investigations)
   Our investigation revealed that an Amtrak employee used her Amtrak PCard to reserve
   a conference room at the Union Station Business Center. An employee of another
   company located inside the Union Station Business Center surreptitiously obtained and
   later used her PCard number to make purchases at Bloomingdales, Nieman Marcus,
   Macy’s, and to purchase basketball tickets and online adult entertainment. The
   individual was arrested and prosecution is pending.

   Failure to Report Job Injury
   June 2013 (Investigations)
   We investigated allegations that an Amtrak coach cleaner did not report an on the job
   injury she sustained. The injury did not come to management’s attention until a claim
   was filed by the employee. Additionally, although three Amtrak employees were
   interviewed by the injured employee’s counsel, none of the employees notified

   8        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                            Significant Activities



management of the interview or the injury, as required. We reported the results of our
investigation to Amtrak management and recommended they publish and disseminate
policy reminders regarding employees’ duties to report work-related injuries and
protect confidential information from dissemination to outside parties before consulting
with supervisors. Amtrak management concurred with our recommendations.

Amtrak Employee Not Truthful in Deposition
June 2013 (Investigations)
Our investigation revealed that an Amtrak Train Attendant reported an on the job
injury over two months after the alleged event, claiming she tripped and fell while
climbing the stairway aboard her assigned car. The employee filed a civil suit for
$300,000. It was determined that the employee was not truthful in her deposition, and
did not disclose medical treatment that she had previously received for shoulder pain
prior to the alleged accident at Amtrak. The suit was subsequently settled for $17,000.
Additionally, the Railroad Retirement Board gave the employee $12,342 in sickness
benefits and she received $11,538 from Trustmark, a union supplemental sickness
benefit plan. The district attorney declined prosecution. The matter was referred to
Amtrak management for consideration.

Fraudulent Activities Related to Purchasing Tickets
April 2013 (Investigations)
In our prior semiannual report, we noted that our investigative work disclosed that two
individuals used numerous stolen credit cards to purchase Amtrak train tickets in
Greensboro, NC. The individuals relocated to New York where they were arrested. One
individual pled guilty in North Carolina General Court of Justice to multiple counts of
identity theft, unlawfully obtaining credit cards and financial card fraud. He was
sentenced to 56-68 months’ incarceration, of which all but 36 months was suspended.
He was ordered to pay restitution of $3,000 to Amtrak and to pay $2,958 in court costs
and attorney fees. Prosecution is pending for a codefendant.

Amtrak Passenger Charged With Filing a Fraudulent Injury Claim
April 2013 (Investigations)
During the prior semiannual period, we reported that an investigation showed that a
truck ran a railroad crossing in Plant City, FL, and struck the Amtrak Silver Star train.
Passengers injured in the resulting derailment filed claims against Amtrak. One
      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   9
Significant Activities



   passenger received a $20,000 payment from Amtrak and subsequently filed a demand
   for $87,000 and a civil suit against the trucking company insurer. Our investigation
   determined that the passenger was in fact not on the train at the time of the accident,
   having disembarked earlier in Lakeland, FL. The individual was arrested and charged
   under Florida statutes with two counts of insurance fraud and two counts of theft. In
   April 2013, the passenger entered into a plea agreement with the State of Florida
   wherein she pled guilty to one count of theft and one count of insurance fraud. She was
   sentenced to 10 years of probation, 50 hours of community service and was ordered to
   pay restitution to Amtrak in the amount of $20,000 and $7,113.92 to the National
   Indemnity Insurance Company. In addition, she was ordered to pay all court costs and
   the cost of the investigation.

   Ongoing Work—Governance
   Capital Program Management. Our objective is to determine the effectiveness of
   Amtrak’s policies and procedures for managing the execution of capital projects
   focusing on its practices for overseeing and monitoring cost, schedule, performance,
   and project close-out.

   Top Management and Performance Challenges. Our objectives are to (1) identify
   Amtrak’s top management and performance challenges, and (2) assess the ongoing and
   planned management initiatives to address those challenges.

   Monitoring the Work of Amtrak’s Independent Public Accountant Conducting the
   FY 2013 Financial Statement Audit. Our objective is to determine whether the
   Independent Public Accountant (IPA) performed the audit of Amtrak’s Consolidated
   Financial Statements in accordance with generally accepted government auditing
   standards, and to follow up on prior recommendations made to the Audit and Finance
   Committee and Chief Financial Officer.

   Monitoring the Work of Amtrak’s Independent Public Accountant Conducting the
   FY 2013 A-133 Audit. Our objective is to determine whether the IPA performed the
   single audit in accordance with generally accepted government auditing standards and
   the Office of Management and Budget Circular A-133.




   10       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                            Significant Activities



Data Analytics Review of Travel Cards. Our objectives are to (1) assess the
effectiveness of internal controls in the company’s business processes; (2) identify
opportunities to control risks and improve efficiency and effectiveness of business
operations; and (3) prevent, detect, and deter fraud, waste, and abuse in the company.

Data Analytics Review of Payment Terms and Discounts. Our objectives are to
(1) assess the effectiveness of internal controls in the company’s business processes;
(2) identify opportunities to control risks and improve efficiency and effectiveness of
business operations; and (3) prevent, detect, and deter fraud, waste, and abuse in the
company.

Acquisition and Procurement
Amtrak Corporate Lodging Practices: Improved Business Process Lead to Substantial
Cost Avoidance
September 2013 (Investigations)
Our investigation identified opportunities to improve the cost effectiveness of Amtrak’s
lodging program. During the last three fiscal years, Amtrak spent approximately
$69 million to provide overnight lodging for about 6,400 employees. Amtrak outsources
its lodging services to a lodging management firm in an effort to gain leverage in
negotiating hotel room rates and to manage Amtrak’s lodging program. Our
investigation found that some Amtrak managers responsible for arranging lodging for
employees did not always follow the recommendations of the lodging management
firm on how to use industry best practices to realize significant savings. We reported
the results of our investigation to management, who agreed to take action to adopt the
best practices recommended in the report. Amtrak management estimated that by
following the lodging management firm’s recommended best practices, the company
could realize a cost avoidance of $1.1 million per year.

Conflicts of Interest
June 2013 (Investigations)
We reported the results of our investigation into allegations of a possible conflict of
interest by a company vice president in the award and administration of contracts to
provide training to Amtrak executives. We determined that the vice president’s father
had a relationship to the company that provided the training. Our investigation

      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   11
Significant Activities



   disclosed that the vice president’s position gave the appearance or perception of a
   conflict of interest. We did not find that the vice president or his father derived any
   financial benefit or gain from the training contract; however, we found that Amtrak has
   no corporate recusal policy for conflict of interest. Amtrak management has revised its
   policy to provide guidelines and training for reporting and documenting recusal
   matters.

   Amtrak Claims Department Use of Contracted Investigative Surveillance
   May 2013 (Investigations)
   We conducted an investigation into allegations that an investigative firm overcharged
   and submitted inflated claims for surveillance work performed under contract to the
   Amtrak Claims department. Our investigation did not disclose fraud on the part of the
   contractor or Claims department officials. Our investigation disclosed control issues
   that were similar or identical to those reported in an August 2012 audit report3. The
   Amtrak Claims department has taken actions to address some of these matters and
   others are underway.

   Ongoing Work—Acquisition and Procurement
   Survey of Procurement Process. Our objective is to gain an understanding of
   Procurement and Materials Management department’s processes and compare them to
   best practices.




   3
    Claims Program: Use of Best Practices Would Strengthen Management Controls, Report No. OIG-A-2012-016,
   August 14, 2012.
   12        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                           Significant Activities




Gateway Project Planning
and Development. Our
objective is to provide
stakeholders timely
information and
recommendations, where
appropriate, based on an
independent review of
emerging issues related to
the Northeast Corridor
infrastructure planning
and implementation.

                                        OIG staff meet with Amtrak and construction company
                                        officials at the Gateway project site.
                                        Photo: Amtrak OIG



Information Technology (IT)
Information Technology: Opportunities Exist to Improve Services, Economies, and
Contract Performance
(Audit Report No. OIG-A-2013-013, April 16, 2013)
While achieving some of the expected program results, Amtrak’s IT department could
have more effectively planned and managed its approach to acquiring IT services;
better administered the contracts; and held the contractors more accountable for
meeting contract terms. As a result, the IT department has not consistently received the
level of IT support services it contracted for, continues to incur higher than necessary IT
support costs, and faces an increased risk of costly interruptions to key business
operations. Further, we identified up to $27 million in potential savings through the end
of the contract and $4.4 million in payments that could have been avoided with closer
management attention.



     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   13
Significant Activities



   During the course of our work, we discussed weaknesses with Amtrak’s new Chief
   Information Officer who began working aggressively to address them. We made a
   number of recommendations aimed at improving the effectiveness and efficiency of
   support services provided by the IT Infrastructure Initiative program. Management
   agreed with the recommendations and suggested approaches for addressing them
   within the context of its ongoing organizational change to, among other things, enable
   Amtrak to govern more effectively.

   Train Operations and Business Management




   Amtrak dining car report.
   Photo: Amtrak OIG




   14        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                            Significant Activities




Ongoing Work—Train Operations and Business
Management
Food and Beverage Best Practices. Our objective is to make a comparative analysis
between Amtrak’s business process for providing food and beverage service and best
practices used by others to deliver the same or similar service. Using that analysis, we
will assess the effects of Amtrak using different food and beverage service business
processes from a cost, revenue, operations, and service perspective.

FY 2013 Implementation of the 2008 Passenger Rail Investment and Improvement Act
(PRIIA). Our objectives are to (1) examine Amtrak’s progress in implementing its PRIIA
responsibilities, and (2) assess any challenges to completing the implementation.

Follow-up Audit on Compliance with the Americans with Disabilities Act (ADA).
Our objective is to assess Amtrak’s progress toward achieving ADA-compliance at
stations it serves.

Human Capital Management
Theft of Funds
September 2013 (Investigations)
Our investigation disclosed that an Amtrak ticket receiver cashier, who was responsible
for reconciling cash deposits from lead service attendants upon completion of their train
run, was actually pocketing some of the cash deposits. This employee was sporadically
absent from work and resigned when asked to take a drug test. After being arrested, the
employee later pled guilty and was sentenced to a 180 day suspended sentence, 3 years
of probation, and also was ordered to pay $10,871 in restitution.

Former Ticket Clerk Charged With Insurance Fraud
July 2013 (Investigations)
Our prior semiannual report noted the investigation of a former Amtrak ticket clerk
who was charged with extensive disability insurance fraud in San Diego Superior
Court. The former employee submitted claims to several insurance companies and she
received sickness benefits from the Railroad Retirement Board. The former employee
was found guilty on 29 criminal counts, including insurance fraud, tax evasion, and

      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   15
Significant Activities



   false claims submitted to the Railroad Retirement Board. When she subsequently failed
   to appear in court for her sentencing, a warrant was issued for her arrest. She was
   consequently sentenced in absentia to 20 years and 4 months of incarceration and
   ordered to pay $920,134 in restitution, including $21,228 to the Railroad Retirement
   Board. She was also fined $100,000 and ordered to pay court fees of $2,082. In July 2013,
   she was arrested in Rosarita Beach, Mexico and was extradited to San Diego.
   Prosecution is pending against her for failure to appear in court.

   Employee Theft and Abuse of Personal Rail Travel
   July 2013 (Investigations)
   We investigated allegations that an employee used his and his dependents’ Rail Travel
   Privilege cards to obtain and give pass rider tickets to ineligible persons, resulting in
   approximately $10,000 in revenue loss to Amtrak. The investigation also found that the
   employee stole a variety of supplies on a consistent basis. Charges were brought against
   the employee that resulted in termination of his employment.

   American Recovery and Reinvestment Act of 2009
   (ARRA)
   American Recovery and Reinvestment
   Act: Amtrak Has Taken Positive Steps
   to Safeguard Funds Used for Concrete
   Tie Replacement Program
   (Evaluation Report No. OIG-E-2013-017,
   September 19, 2013)
   Amtrak has taken positive steps to
   proactively minimize the risk of
   manufacturing defects in concrete ties.
   The company has negotiated a series of
   contracts to reduce the potential             Concrete ties.
   financial risks associated with any           Photo: Amtrak Corporate Communications
   future defective ties. The most recent
   contract, signed in June 2010, requires the contractor to maintain a quality assurance
   system acceptable to Amtrak and this system has been certified annually by two

   16       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                           Significant Activities



independent organizations. The contract also extends the warranty period during
which Amtrak can make claims to be reimbursed for all damages resulting from
defective ties from five to eight years.

Amtrak has maintained its commitment to monitor the contractor’s performance, with
the same Amtrak engineer overseeing the production since May 2003. This has
resulted in no observed defects or reduction of train speeds on the Northeast Corridor
as a result of the quality of the ties manufactured and installed since 2003.

Although Amtrak has successfully implemented its quality assurance practices, these
practices are not yet fully described in enough detail to enable future Amtrak quality
assurance personnel to uniformly continue current practices. We recommended the
Chief Engineer ensure that the quality assurance plan is updated to fully describe
current practices. During our evaluation, Engineering officials agreed and began to
update the quality assurance plan.

American Recovery and Reinvestment Act: Opportunities Exist to Recover Funds
and Reduce Future Costs by Improving Procurement Policies
(Audit Report No. OIG-A-2013-016, July 29, 2013)
The policies, procedures, and practices used by Procurement and Materials
Management (Procurement and Materials) provided assurance that change orders
to its ARRA contracts were, with minor exceptions, adequately supported and
allowable under the contracts’ terms and conditions. We found an error rate of
1.2 percent in our review of whether the policies, procedures, and practices used
ensured that the values of the 92 ARRA contract change orders were adequately
supported and allowable under the contracts’ terms and conditions. This low error
rate was in part attributable to Procurement and Materials’ enhancement of the
review process for ARRA funds—by engaging contractors to review the fairness
and reasonableness of proposed change order values. The errors we identified
amounted to approximately $824,042—$596,345 in questioned costs and $227,697 in
unsupported costs. We questioned these costs because Procurement and Materials
approved change orders that contained errors, including applying (1) overhead
rates to costs not covered in the general contract provisions, (2) incorrect overhead
rates, (3) incorrect profit rates, and (4) inappropriate markup of subcontractor costs
and sales tax.

     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   17
Significant Activities



   In addition, the opportunity has been missed to save about $529,175 resulting from
   procurement policy weaknesses, including (1) the lack of policy guidance stating
   overhead and profit should be applied based on the total change order value and
   (2) policy silence on allowable overhead and profit rates for service contracts.
   Correcting these weaknesses could reduce the cost of future change orders.
   Although we were not able to conclusively document future savings, these
   weaknesses likely could result in some percentage of change orders related to
   Amtrak’s existing contracts—valued at $1.4 billion—being more costly than
   necessary.

   We recommended the Acting Chief Financial Officer take action to recover
   questioned costs and obtain documentation or seek reimbursement for
   unsupported costs identified in the report. Additionally, we recommended that
   General Counsel work with the Chief Logistics Officer to clarify procurement
   policy. Management generally concurred with the recommendations.

   Ongoing Work—ARRA
   Controls Over the Disposition of Equipment Purchased With ARRA Funds. The
   objective of this audit is to assess the adequacy of controls over the disposition of
   equipment such as computers, furniture, and tools purchased with ARRA funds.

   Asset Management
   Asset Management: Amtrak is Preparing to Operate and Maintain New Locomotives,
   but Several Risks to Fully Achieving Intended Benefits Exist
   (Evaluation Report No. OIG-E-2013-021, September 27, 2013)
   Amtrak has taken some significant actions and developed plans to introduce 70 new
   electric locomotives into revenue service, once they are delivered. The actions include
   hiring a Project Team Leader, developing and coordinating a testing plan, and
   developing plans to train staff to maintain the new locomotives. However, as of July 1
   of this year, some important actions and plans had been delayed or had not been
   finalized, including:




   18       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                             Significant Activities



       improving its facilities to test and maintain the locomotives, raising questions
        about whether these improvements are needed and, if so, the most cost-effective
        way to fund the construction;

       scheduling the retirement of the current locomotives, potentially causing Amtrak
        to continue to spend more than necessary to maintain and overhaul locomotives
        that it plans to remove from active service over the next three years;

       finalizing practices for maintaining the new locomotives that could impact their
        availability or reliability if not completed before the locomotives are put into
        service; and

       procuring spare parts, increasing the risk that parts might not be available when
        needed or might cost more than necessary.

Additionally, Amtrak has not designated an individual to be accountable for
synchronizing all of the company’s efforts to prepare for the new locomotives. This has
delayed the finalization of some plans and actions, which could reduce the expected
benefits. We recommended Amtrak assign authority and responsibility for managing
and synchronizing these efforts to ensure that all plans are finalized in a cost-effective
and timely manner—and also to ensure that all associated tasks are documented in a
policy to guide this and future procurements.

Based on our report, Amtrak cancelled all future overhauls of electric locomotives.
According to Amtrak’s most recent five-year plan (published in May 2013), this change
provides the company more than $14 million that can be spent elsewhere.

Employees Steal Materials from Amtrak Yards
August 2013 (Investigations)
Our prior semi-annual report noted that a joint investigation with the Amtrak Police
department discovered that five Amtrak employees stole communications wire from
several locations in Pennsylvania and Delaware and resold it to recycling companies.
The stolen wire was valued at more than $100,000. All five individuals pled guilty in
federal court and are no longer employed by Amtrak. Two individuals were sentenced
to 12 months’ probation and two individuals were sentenced to 36 months’ probation.
One defendant was sentenced to pre-trail diversion and was ordered to pay $10,000 in

       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   19
Significant Activities



   restitution. That defendant’s criminal record will be cleared after one year if he follows
   the pre-trial diversion plan. The remaining four defendants were ordered to make
   restitution to Amtrak jointly and severally of $99,249.

   Real Property Management: Applying Best Practices Can Improve Real Property
   Inventory Management Information
   (Audit Report No. OIG-A-2013-015, June 12, 2013)
   Our comparative analysis of best practices for real property inventory management
   information systems to Amtrak’s practices show opportunities for improvement. Real
   property management responsibilities at Amtrak are divided among a number of
   departments, including the Finance, Engineering, Law, Transportation, Procurement,
   and Environmental Health and Safety. However, none of these departments has a
   comprehensive real property inventory management information system that could be
   used to accomplish all departments’ diverse strategic real property goals.

   Further, the real property inventory management information the departments
   maintain is incomplete and contains inconsistent data. The absence of a comprehensive
   real property management information system leaves Amtrak vulnerable to
   experiencing (1) higher than necessary operating and maintenance costs for
   underutilized and/or unnecessary real property, (2) higher than necessary leasing
   expenditures through lost opportunities to consolidate underutilized space, and
   (3) lower revenues for unidentified land and facilities available for sale or lease to other
   entities.

   We were informed by Finance department’s Real Estate Development officials that the
   corporation has efforts underway to improve the quality of its real property
   information. The information provided in this report can be useful in those efforts. To
   that end, we recommended that Amtrak develop a comprehensive real property
   inventory management information system that includes consideration of the best
   practices identified in this report.




   20       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                           Significant Activities



Asset Management: Integrating Sound Business Practices into its Fleet Planning
Process Could Save Amtrak Hundreds of Millions of Dollars on Equipment
Procurements
(Evaluation Report No. OIG-E-2013-014, May 28, 2013)
Amtrak risks spending hundreds of millions of dollars more than necessary and
needing additional operating subsidies if it does not adopt sound business practices as
it improves its fleet planning process. For example, Amtrak has not established a
disciplined process to analyze its equipment needs in a manner consistent with sound
business practices although it agreed to do so in response to our prior
recommendations. Amtrak projected its equipment acquisition requirements without
having analyzed route-specific ridership demand or having determined the optimal
level of service for each route based on Amtrak’s business strategies. Additionally,
Amtrak did not consider its plans to improve equipment availability in determining the
amount of equipment it needs. Further, the corporation did not adequately integrate its
fleet acquisition plans with its strategic plans, most notably its financial plans. It is
unclear how Amtrak plans to fund future equipment acquisitions because the funding
requirements in the FY 2012 Fleet Strategy are inconsistent with the current 5-year plan.
Amtrak’s ongoing procurement of electric locomotives illustrates the risks that could
arise when procuring equipment in this manner, as it appears that Amtrak may have
decided to buy more equipment than needed.

Amtrak’s President and Chief Executive Officer told us it is designing a new approach
to fleet planning that aligns with its corporate strategy, which will include comparing
the costs of buying new equipment with the costs of operating existing equipment
before requests to buy new equipment will be approved. To assist management’s
current efforts to improve the fleet planning process, we recommended that Amtrak’s
President and Chief Executive Officer implement the recommendations from our prior
report to ensure that the weaknesses in Amtrak’s fleet planning processes are
addressed, review the ongoing electric locomotive procurement to determine whether
funds could be better spent elsewhere, and consider asking Congress to suspend any
requirements for an FY 2013 fleet strategy document for a year in order to address the
recommendations in this report. Amtrak’s President and Chief Executive Officer
generally concurred with all of our recommendations.



     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   21
Significant Activities




   Ongoing Work—Asset Management
   Fleet Utilization. The objective of this evaluation is to determine the extent to which
   Amtrak effectively and efficiently utilizes its fleet of locomotives and passenger
   equipment.




   22       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                   Heartland Flyer at Gene Autry, OK
                                                                           Photo: Amtrak Corporate Communications




Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   23
Actions to Continuously Improve OIG Operations




   Actions to Continuously Improve
   OIG Operations
   We continually strive to improve our operations to benefit Congress, the Board of
   Directors, and the corporation. To that end, we have taken key actions to enhance the
   capabilities of our investigators, auditors, and evaluators, as well as our ability to
   conduct organization-wide activities.

   Investigations
   In the last six months, our investigative office enhanced staff capabilities through two
   significant achievements—obtaining law enforcement authority and completing in-
   service training. On September 25, 2013, Attorney General Eric H. Holder, Jr., approved
   a request for our investigative agents to exercise statutory law enforcement powers in
   accordance with the Inspector General Act and the Attorney General Guidelines for
   Offices of Inspector General. With this authority, our agents may exercise law
   enforcement duties, including carrying firearms while engaged in official law
   enforcement duties, making arrests without a warrant, seeking and executing warrants
   for arrest and search of premises, and seizing evidence. Before obtaining statutory law
   enforcement authority, our agents had to undergo a review and be approved to exercise
   the above powers by obtaining special deputation from the U.S. Marshals Office.

   Additionally, in August, our investigative office completed its annual in-service
   training, which covered defensive tactics, arrest techniques, blood-borne pathogens,
   continuing legal education on constitutional issues, and other topics. The sessions were
   led by speakers from within the OIG and Amtrak as well as external agencies, including
   the Department of Health & Human Services, OIG; Treasury Inspector General for Tax
   Administration; Department of Justice; and Defense Criminal Investigative Service.

   Audits and Evaluations
   We also took action to enhance the capabilities of our audit and evaluation staff by
   conducting internal training and initiating an upgrade of our project management tool,
   TeamMate. Our August internal training for nearly 40 audit and evaluation staff

   24       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                        Actions to Continuously Improve OIG Operations



included refreshers on the audit/evaluation process, writing reports, and assessing and
documenting project risk. We identified these topics through our system of quality
control which includes an assessment of completed projects against accepted auditing
standards and internal policies. During this training, we introduced staff to a
forthcoming upgrade of our project management tool, which we initiated as part of our
commitment to provide staff with leading edge resources. This effort included
classroom training for select staff and a period of testing to ensure that the tool will
work as expected. The staff who received classroom training will provide on the job
training to their teams and serve as champions when questions arise. We expect to
complete the upgrade by the end of calendar year 2013.

Organization-Wide
Organization-wide efforts included
office right-sizing; reinitiating
development of a human capital
strategic plan, including workforce
planning; and conducting our
semiannual all hands meeting. First,
during this period we completed our
office right-sizing. During FY 2013, we
faced budget reductions mandated by
sequestration and unanticipated            Chicago field office, audit team.
employee benefit cost increases. We        Photo: Amtrak OIG
decided that the best course of action
was not just to get through FY 2013, but also to be prepared for a similar FY 2014
budget environment. Consequently, we reduced our headcount through a March 2013
voluntary separation and a May 2013 reduction in force. Second, before the budget
challenges and subsequent mitigation, we had started developing a human capital
strategic plan, including a tailored workforce plan. We reinitiated this effort and we
anticipate completion of the plan during FY 2014. Finally, we conducted our
semiannual all-hands meeting in August, reviewing with staff the details of the various
office changes and presenting our plan for the way ahead.




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   25
                                                                               Empire Builder at Stevens Pass, WA
                                                                        Photo: Amtrak Corporate Communications




26   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                  OIG Organization




OIG Organization
The OIG headquarters is based in Washington, DC, with field offices in Boston,
Chicago, Los Angeles, and Philadelphia.




The Inspector General provides policy direction and leadership for Amtrak OIG and
serves as an independent voice to Congress and the Board of Directors by identifying
opportunities and promoting solutions for improving the company’s programs and
operations, while preventing and detecting fraud, waste, and abuse. The Deputy
Inspector General assists the Inspector General in developing and implementing the
OIG’s diverse audit, inspection, evaluation, investigative, legal, and mission support
operations.




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   27
OIG Organization



   Audits. This office conducts independent and objective performance and financial
   audits across the spectrum of Amtrak’s support and operational activities. It produces
   reports on those activities aimed at improving Amtrak’s economy, efficiency, and
   effectiveness, while seeking to detect and prevent fraud, waste, and abuse.

   Inspections and Evaluations. This office conducts independent and objective
   evaluations of Amtrak programs and operations to identify opportunities to improve
   cost efficiency and effectiveness, and the overall quality of service delivery throughout
   Amtrak.

   Investigations. This office pursues allegations of fraud, waste, abuse, and misconduct
   that could affect Amtrak’s programs, operations, assets, and other resources. It refers
   investigative findings to the Department of Justice for criminal prosecution or civil
   litigation, or to Amtrak management for administrative action. It also develops
   recommendations to reduce Amtrak’s vulnerability to criminal activity.

   General Counsel. Counsel provides legal assistance and advice to OIG senior
   management and supports audits, evaluations, special reviews, and investigations.
   Counsel coordinates with outside attorneys, including local and federal agencies and
   law enforcement attorneys, and appears in court on behalf of the OIG and its
   employees.

   Mission Support. This office provides expertise in financial management, procurement,
   human capital management, administration, information technology, and
   communications to support OIG operations.

   Quality Assurance and Internal Affairs. This office provides guidance, monitors the
   system of quality control, and conducts inquiries into allegations of misconduct by or
   involving OIG employees.




   28       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                           California Zephyr
                                                                                   Photo: Amtrak Corporate Communications




Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   29
      Appendix 1


              Appendix 1                             Fiscal Year 2013 Performance
                                                     Measures (4/1/2013 – 9/30/2013)

           Audit/Evaluation Results                                                              Investigative Results
Reports/Evaluations Issued                                              9
                                                                                                       Financial Impact
Costs Questioned/Unsupported/Funds to
                                                          $53,457,246            Recoveries/Restitution                                     $1,060,367.95
Be Put to Better Use                                                                                                                                     b
                                                                                 Cost Avoidance                                               $3,300,000
Recoveries (Audits)                                        $2,362,627
                                                                                                      Cases Opened
                                                                                 Major Misconduct and General
                                                                                                                                                       14
                                                                                 Crimes
                                                                                 Claims Fraud                                                           1
               Advisory Functions                                                Contract and Procurement Fraud                                         1
FOIAa Requests Received                                                8
                                                                                              Judicial and Administrative Actions
FOIA Requests Processed                                                8         Arrests                                                                2
Referred to Amtrak                                                     1         Indictments                                                            3
Response Pending                                                       2         Convictions                                                            7
FOIA Appeals Received                                                 2          Criminal Referrals Accepted                                           12
FOIA Appeals Processed                                                1          Criminal Referral Declined                                             9
Legislation Reviewed                                                  —          Administrative Actions                                                19
Regulations Reviewed                                                  —                             Investigative Workload
                                                                                 Investigations Opened                                                 16
                                                                                 Investigations Closed                                                 34
                                                                                                  Hotline Contacts/Referrals
                                                                                 Sent to Amtrak Management                                            119
                                                                                 Investigation Opened                                                   2
                                                                                 Referred to Other Law Enforcement
                                                                                                                                                        1
                                                                                 Agency
                                                                                 Customer Complaint                                                    42
                                                                                 Under Review                                                           3
                                                                                 No Action Warranted                                                   12


  a
      Freedom of Information Act.
  b
      $1,100,000 per year for three years.




             30          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                  Appendix 2


Appendix 2                             Questioned Costs (Audits)
                                       (4/1/2013 – 9/30/2013)

                    Audit Reports Issued with Questioned Costs
                                                                                              Questioned                     Unsupported
Category                                                             Number                        Costs                           Costs
A. For which no management decision
   has been made by the                                                         —                            $—                       $—
   commencement of the reporting period
B. Reports issued during the reporting
                                                                                 2                  7,296,345                     227,697
   period
Subtotals (A+B)                                                                  2                  7,296,345                     227,697

Less
C. For which a management decision
   was made during the reporting period
   (i) dollar value of recommendations
                                                                                 2                  7,296,345                     227,697
        agreed to by management
   (ii) dollar value of recommendations
                                                                                —                             —                        —
        not agreed to by management
D. For which no management decision
   has been made by the end of the                                              —                             —                        —
   reporting period




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |       31
Appendix 3


    Appendix 3                             Funds Put To Better Use (Audits
                                           and Evaluations)
                                           (4/1/2013 – 9/30/2013)

      Audit and Evaluation Reports Issued with Funds to be
                        Put to Better Use
    Category                                                                   Number                     Dollar Value
    A. For which no management decision
 B.    has been made by the commencement of                                               —                               $—
       the reporting period
    B. Reports issued during the reporting period                                          3                    45,933,204
    Subtotals (A+B)                                                                        3                    45,933,204

    Less
    C. For which a management decision was
        made during the reporting period
       (i) dollar value of recommendations that
                                                                                           3                    45,933,204
            were agreed to by management
       (ii) dollar value of recommendations that
                                                                                          —                                 —
            were not agreed to by management
    D. For which no management decision
        has been made by the end of the                                                   —                                 —
        reporting period




    32         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                        Appendix 4


      Appendix 4                             Audit and Evaluation Reports
                                             (4/1/2013 – 9/30/2013)
                        Listing of Issued Audit/Evaluation Reports
                                                                                                                                    Funds to
Date        Report                                           Focus                Questioned              Unsupported               be Put to
Issued      Number          Report Title                     Area                      Costs                    Costs              Better Use
4/16/2013   OIG-A-          Information                      Information                         $—                        $—       $31,400,000
            2013-013        Technology:                      Technology
                            Opportunities Exist to
                            Improve Services,
                            Economies, and
                            Contract Performance
5/28/2013   OIG-E-          Asset Management:                Asset                                 —                           —               —
            2013-014        Integrating Sound                Management
                            Business Practices
                            into its Fleet Planning
                            Process Could Save
                            Amtrak Hundreds of
                            Millions of Dollars on
                            Equipment
                            Procurements
6/12/2013   OIG-A-          Real Property                    Asset                                 —                           —               —
            2013-015        Management:                      Management
                            Applying Best
                            Practices Can Improve
                            Real Property
                            Inventory Management
                            Information
7/29/2013   OIG-A-          American Recovery                American                       596,345                   227,697             529,175
            2013-016        and Reinvestment Act:            Recovery and
                            Opportunities Exist to           Reinvestment
                            Recover Funds and                Act
                            Reduce Future Costs
                            by Improving
                            Procurement Policies
9/19/2013   OIG-E-          American Recovery                American                              —                           —               —
            2013-017        and Reinvestment Act:            Recovery and
                            Amtrak Has Taken                 Reinvestment
                            Positive Steps to                Act
                            Safeguard Funds Used
                            for Concrete Tie
                            Replacement Program
9/20/2013   OIG-A-          Governance:                      Governance                  6,700,000                             —               —
            2013-018        Enhanced Controls
                            Needed to Avoid
                            Duplicate Payments
9/26/2013   OIG-A-          Governance: Most                 Governance                            —                           —               —
            2013-019        Procurement Card
                            Controls are Effective,
                            but Some Need to be
                            Strengthened




            Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |     33
Appendix 4


                        Listing of Issued Audit/Evaluation Reports
                                                                                                                                     Funds to
Date         Report                                          Focus                Questioned              Unsupported                be Put to
Issued       Number         Report Title                     Area                      Costs                    Costs               Better Use
9/27/2013    OIG-E-         Corporate                        Governance                            —                         —                  —
             2013-020       Governance: Planned
                            Changes Should
                            Improve Amtrak's
                            Capital Planning
                            Process, and Further
                            Adoption of Sound
                            Business Practices
                            Will Help Optimize the
                            Use of Limited Capital
                            Funds
9/27/2013    OIG-E-         Asset Management:                Asset                                 —                         —           14,004,029
             2013-021       Amtrak is Preparing to           Management
                            Operate and Maintain
                            New Locomotives, but
                            Several Risks to Fully
                            Achieving Intended
                            Benefits Exist
    Total                                                                            $7,296,345                   $227,697          $45,933,204




                            Ongoing Audit and Evaluation Projects
            Project Status                                                                             Number of Projects
            Audit and Evaluation Projects In-process, as of
                                                                                                                                    14
            4/1/2013
            Projects Postponed or Canceled                                                                                          1
            Audit and Evaluation Projects Started Since 4/1/2013                                                                    9
            Audit and Evaluation Reports Issued Since 4/1/2013                                                                      9
            Audit and Evaluation Projects In-process, as of
                                                                                                                                    13
            9/30/2013




      34         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                  Appendix 5


Appendix 5                             Recommendations for Which
                                       Corrective Action Not Complete
                                       (Audits)
  Previous Audit Report Recommendations for Which Corrective
                 Action Has Not Been Completed
                                                                                                                             Funds to be
                                        Report                             Questioned Unsupported                                 Put to
Audit Report                            Number/Date                             Costs       Costs                             Better Use
Railroad Invoice Review:                506-2001/                             $125,957        $—                                     $—
SPCSL Report 1 of 4                     August 3, 2001
Railroad Invoice Review:                507-2001/                                 153,766                          —                  —
SPCSL Report 2 of 4                     August 31, 2001
Railroad Invoice Review:                508-2001/                                 140,377                          —                  —
SPCSL Report 3 of 4                     September 12, 2001
Railroad Invoice Review:                509-2001/                                 282,957                           —                 —
SPCSL Report 4 of 4                     September 21, 2001
Information Security Review             107-2004                                           —                        —                 —
                                        March 31, 2008
Strategic Asset                         105-2010/                                          —                        —                 —
Management Program                      January 14, 2011
Controls Design Is
Generally Sound, But
Improvements Can Be
Made
On-Time-Performance                     403-2010/                                 519,932                           —                 —
Incentives: Inaccurate                  April 21, 2011
Invoices Were Paid Due to
Long-standing Weaknesses
in Amtrak's Invoice-Review
Process
Americans with Disabilities             109-2010/                                          —                        —                 —
Act: Leadership Needed to               September 29, 2011
Help Ensure That Stations
Served By Amtrak Are
Compliant
Wireless Network Security:              OIG-A-2012-003/                                    —                        —                 —
Internal Controls Can Be                December 7, 2011
Improved




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |       35
Appendix 5


     Previous Audit Report Recommendations for Which Corrective
                    Action Has Not Been Completed
                                                                                                                                Funds to be
                                          Report                            Questioned Unsupported                                   Put to
   Audit Report                           Number/Date                            Costs       Costs                               Better Use
   On-Time-Performance                    OIG-A-2012-004/                        9,151,451                            —                  —
   Incentives: Inaccurate                 February 15, 2012
   Invoices Were Paid Due to
   Weaknesses in Amtrak's
   Invoice-Review Process
   Amtrak Corporate                       OIG-A-2012-007/                                    —                        —                  —
   Governance: Implementing               March 30, 2012
   a Risk Management
   Framework is Essential to
   Achieving Amtrak's
   Strategic Goals
   On-Time-Performance                    OIG-A-2012-013                         1,430,113                            —                  —
   Incentives: Inaccurate                 June 29, 2012
   Invoices Were Paid
   Human Capital                          OIG-A-2012-014                                     —                        —                  —
   Management: Weaknesses                 July 19, 2012
   in Hiring Practices Result in
   Waste and Operational Risk
   Claims Program: Use of                 OIG-A-2012-016                                     —                        —                  —
   Best Practices Would                   August 14, 2012
   Strengthen Management
   Controls
   Amtrak Invoice Review:                 OIG-A-2012-019                         3,473,737                            —                  —
   Undetected Errors Resulted             September 5, 2012
   in Overpayments
   Food and Beverage                      OIG-A-2012-020                                     —                        —                  —
   Service: Initiatives to Help           September 7, 2012
   Reduce Direct Operating
   Losses Can Be Enhanced
   by Overall Plan
   American Recovery and                  OIG-A-2012-021                         1,200,000                            —                  —
   Reinvestment Act: Some                 September 21, 2012
   Questioned Invoice
   Charges and Minimal
   Benefit from Duplicative
   Invoice-Review Process
   Annual Financial Statement             OIG-A-2012-017                                     —                        —                  —
   Audits: Observations for               September 27, 2012
   Improving Oversight of the
   Independent Public
   Accountant

   36        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                 Appendix 5


 Previous Audit Report Recommendations for Which Corrective
                Action Has Not Been Completed
                                                                                                                            Funds to be
                                       Report                             Questioned Unsupported                                 Put to
Audit Report                           Number/Date                             Costs       Costs                             Better Use
Amtrak Invoice Review:                 OIG-A-2013-006                          2,115,440                           —                 —
Undetected Inaccuracies                February 15, 2013
Resulted in Overpayments
(BNSF)
Amtrak Invoice Review:                 OIG-A-2013-007                          1,205,626                           —                 —
Internal Control                       March 13, 2013
Weaknesses Lead to
Overpayments (Southern
Pacific)
Amtrak Invoice Review:                 OIG-A-2013-008                          1,437,311                           —                 —
Internal Control                       March 26, 2013
Weaknesses Lead to
Overpayments (BNSF)
Management of Overtime:                OIG-A-2013-009                                     —                        —                 —
Best Practice Control Can              March 26, 2013
Help in Developing Needed
Policies and Procedures
Amtrak Invoice Review:                 OIG-A-2013-010                          1,223,028                           —                 —
Internal Control                       March 27, 2013
Weaknesses Lead to
Overpayments (Metro
North)
Audit of Grant Agreement:              OIG-A-2013-012                                2,098                    9,247                  —
Next Generation Equipment              March 27, 2013
Committee Materially
Complied with Terms of
Grant Agreement
Amtrak Invoice Review:                 OIG-A-2013-011                          2,338,860                           —                 —
Internal Control                       March 28, 2013
Weaknesses Lead to
Overpayments (Union
Pacific)
           TOTAL                                                           $24,800,653                      $9,247                   $—




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |       37
Appendix 6


   Appendix 6                            Recommendations for Which
                                         Corrective Action Not Complete
                                         (Evaluations)
        Previous Evaluation Reports’ Recommendations for Which
               Corrective Action Has Not Been Completed

                                                                                                                   Estimated Annual
                                            Report Number/                     Estimated Annual                     Savings Already
 Evaluation Report                          Date                                       Savingsa                            Achieved
Amtrak Mechanical Maintenance               E-05-04/                                      $100 million+                         $38 million
Operations                                  September 6, 2005
Amtrak Fleet Planning Process               E-06-02/                                          28 million+                         4 million
                                            April 6, 2006
Facility Maintenance Program                E-06-04/                                                      —                             —
                                            August 24, 2006
Human Capital Management                    E-09-03/                                          23 million+                               —
                                            May 15, 2009
Amtrak’s Infrastructure                     E-09-05/                                          50 million+                               —
Maintenance Program                         September 29, 2009
Training and Employee                       E-09-06/                                             8 million                              —
Development                                 October 26, 2009
Operation RedBlock: Actions                 E-11-01/                                                      —                             —
Needed to Improve Program                   March 15, 2011
Effectiveness
Evaluation of Amtrak’s FY 2010              E-11-02/                                                      —                             —
Fleet Strategy: A Commendable               March 31, 2011
High-Level Plan That Needs
Deeper Analysis and Planning
Integrationb
Food and Beverage Service:                  E-11-03/                                                      —                             —
Further Actions Needed to                   June 23, 2011
Address Revenue Losses Due to
Control Weaknesses and Gaps
Human Capital Management:                   OIG-E-2012-009/                                               —                             —
Controls Over the Use of                    March 28, 2012
Temporary Management
Assignment Need Improvement




   38        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                         Appendix 6


          Previous Evaluation Reports’ Recommendations for Which
                 Corrective Action Has Not Been Completed

                                                                                                                        Estimated Annual
                                                 Report Number/                     Estimated Annual                     Savings Already
Evaluation Report                                Date                                       Savingsa                            Achieved
Mechanical Maintenance:                          OIG-E-2012-008/                                               —                              —
Improved Practices Have                          May 21, 2012
Significantly Enhanced Acela
Equipment Performance and
Could Benefit Performance of
Equipment Company-widec
Strategic Asset Management                       OIG-E-2012-012/                                               —                              —
Program: Opportunities to                        May 31, 2012
Improve Implementation and
Lessons Learned
Railroad Safety: Amtrak is Not                   OIG-E-2012-023/                                               —                              —
Adequately Addressing Rising                     September 27, 2012
Drug and Alcohol Use by
Employees in Safety-Sensitive
Positions
Railroad Safety: Amtrak Has                      OIG-E-2013-003                                                —                              —
Made Progress in Implementing                    December 20, 2012
Positive Train Control, but
Significant Challenges Remain
 TOTAL                                                                                      $209 million+                           $42 million+
   a
       Estimated savings based on benchmarking against other organizations
   b
    Not included in the total amount are the funds to be put to better use identified in Report E-11-02 (March 31,
   2011). Implementing the recommendations in this report would allow Amtrak to reduce its fleet requirements by
   53 cars and 25 locomotives over the 30-year planning period in Amtrak’s Fleet Strategy, resulting in a potential
   reduction of more than $520 million in procurement and overhaul costs over the lives of these additional pieces of
   equipment. Additionally, implementing the report recommendation to replace its single-level cars with multi-level
   cars would result in the additional reduction of $174 million to $679 million in procurement and overhaul costs
   over the lives of the equipment.
   c
    Not included in the total amount are the funds to be put to better use identified in Report No. OIG-E-2012-008
   (May 21, 2012). Implementing the recommendations in this report could allow Amtrak to reduce its fleet
   requirements by 120 cars and 45 locomotives, resulting in a potential savings of almost $600 million in fleet
   procurement costs over the next 15 years. However, these savings do not account for any additional costs
   potentially required to achieve this improved level of equipment availability.




             Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |       39
Appendix 7


   Appendix 7                             Review of Legislation,
                                          Regulations, and Major Policies
   Section 4(a) of the Inspector General Act of 1978, as amended, provides that the
   Inspector General shall review existing and proposed legislation and regulations
   relating to programs and operations of such establishment. Also the Inspector General
   shall make recommendations in the semiannual reports concerning the impact of such
   legislation or regulations on the economy and efficiency in the administration of such
   programs and operations administered or financed by such establishment—or the
   prevention and detection of fraud and abuse in such programs and operations.

   We continued to work with Congress to ensure that taxpayer funds provided to Amtrak
   are protected by law from fraud, waste, and abuse by identifying legislative changes
   that would accomplish the following:

           Apply certain provisions of Title 18 to Amtrak and our office to ensure that the
            federal funding Amtrak receives is protected from fraud, waste, and abuse.

           Clarify that claims and statements made to Amtrak are considered claims and
            statements under the False Claims Act to ensure that our office has the necessary
            tools to protect the government and taxpayer dollars from fraud.

           Extend qualified immunity to OIG personnel to ensure that performance of their
            statutory duties is not hindered by the threat of litigation and liability.

           Authorize our office to take advantage of the General Services Administration’s
            programs to conserve federal resources, reduce expenses, and increase efficient
            operations.

   These proposed provisions remain essential to protecting Amtrak from fraud, waste,
   and abuse and to improving our operations.




   40         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                 Appendix 8


Appendix 8                            Peer Review Results

The Dodd-Frank Wall Street Reform and Consumer Protection Act (P. L. 111–203, July 21,
2010) requires each OIG to include in its semiannual report to Congress the results of
any peer review conducted by another OIG during the reporting period, or—if no peer
review was conducted—a statement identifying the date of the last peer review. Also
required is a list of all peer reviews conducted by the OIG of another OIG, and the
status of any recommendations made to or by the OIG.

During the prior reporting period, OIG’s Office of Audits was the subject of a Council
of the Inspectors General on Integrity and Efficiency (CIGIE) peer review by the
Tennessee Valley Authority (TVA) OIG. TVA OIG determined the system of quality
control for our audit function has been suitably designed and complied with to provide
reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. Accordingly, TVA OIG provided a
“pass” rating and made no recommendations. The report was released on February 14,
2013.

OIG’s Office of Investigations was also the subject of a peer review during the prior
reporting period by the Nuclear Regulatory Commission (NRC) OIG. NRC OIG
concluded that the system of internal safeguards and management procedures for the
investigative function of the Amtrak OIG in effect for the year ending February 28, 2013,
was in compliance with the quality standards established by CIGIE and the Attorney
General’s Guidelines. These safeguards and our procedures provide reasonable
assurance of conforming to professional standards in the conduct of investigations.

OIG is scheduled to conduct a CIGIE peer review of the Department of Interior OIG’s
audit organization for the year ending September 30, 2013.




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   41
Appendix 9


   Appendix 9                                Glossary of Terms, Acronyms, and
                                             Abbreviations4

   Management Decision. The evaluation by management of the findings and
   recommendations included in an audit report and the issuance of a final decision by
   management concerning its response to such findings and recommendations, including
   actions that management concludes are necessary.
   Questioned Cost. A cost that is questioned by the OIG because of (1) an alleged
   violation of a provision of a law, regulation, contract, grant, cooperative agreement, or
   other agreement or document governing the expenditure of funds; (2) a finding that, at
   the time of the audit, such cost is not supported by adequate documentation; or (3) a
   finding that the expenditure of funds for the intended purpose is unnecessary or
   unreasonable.
   Recommendation that Funds Be Put to Better Use. A recommendation by the OIG that
   funds could be more efficiently used if management took actions to implement and
   complete the recommendation, including (1) reductions in outlays; (2) deobligation of
   funds from programs or operations; (3) withdrawal of interest subsidy costs on loans or
   loan guarantees, insurance, or bonds; (4) costs not incurred by implementing
   recommended improvements related to the operations of the establishment, a
   contractor, or grantee; (5) avoidance of unnecessary expenditures noted in pre-award
   reviews of contract or grant agreements; or (6) any other savings that are specifically
   identified. (Note: Dollar amounts identified in this category may not always allow for
   direct budgetary actions but generally allow the agency to use the amounts more
   effectively in the accomplishment of program objectives.)
   Unsupported Cost. An unsupported cost is a cost that is questioned by the OIG because
   the OIG found that, at the time of the audit, the cost was not supported by adequate
   documentation.




   4
       All definitions are from the Inspector General Act of 1978, as amended.
   42            Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
                                                                                                                  Appendix 9


Acronyms and Abbreviations

ADA                         American’s with Disabilities Act
ARRA                        American Recovery and Reinvestment Act of 2009
CIGIE                       Counsel of Inspectors General on Integrity and Efficiency
FY                          Fiscal Year
IPA                         Independent Public Accountants
IT                          Information Technology
NRC                         Nuclear Regulatory Commission
OIG                         Office of Inspector General
PCard                       Procurement Card
PRIIA                       Passenger Rail Investment and Improvement Act
TVA                         Tennessee Valley Authority




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   43
Appendix 10


   Appendix 10                            Reporting Requirements Index
   Topic/Section       Reporting Requirement                                                                                     Page
   4(a)(2)             Review of Legislation and Regulations                                                                       40
   5(a)(1)             Significant Problems, Abuses, and Deficiencies                                                            5–22
   5(a)(2)             Recommendations for Corrective Action to Significant Problems                                             5–22
   5(a)(3)             Previous Reports’ Recommendations for Which Corrective Action Has                                         35–39
                        Not Been Completed
   5(a)(4)             Matters Referred to Prosecutive Authorities                                                                 30
   5(a)(5)             Information Assistance Refused or Not Provided                                                             N/A
   5(a)(6)             Audit Reports Issued in This Reporting Period                                                             33–34
   5(a)(7)             Summary of Significant Reports                                                                            5–22
   5(a)(8)             Audit Reports with Questioned Costs                                                                         31
   5(a)(9)             Audit Reports with Recommendations That Funds Be Put to Better                                              32
                        Use
   5(a)(10)            Previous Audit Reports Issued with No Management Decision Made                                            31–32
                        by End of This Reporting Period
   5(a)(11)            Significant Revised Management Decisions                                                                   N/A
   5(a)(12)            Significant Management Decisions with Which the OIG is in                                                  N/A
                        Disagreement
   5(a)(13)            Federal Financial Management Improvement Act-related Reporting                                             N/A
   5(a)(14–16)         Peer Review Results                                                                                         41




   44         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013
              OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission                       The Amtrak OIG’s mission is to provide independent,
                                           objective oversight of Amtrak’s programs and operations
                                           through audits, inspections, evaluations, and investigations
                                           focused on recommending improvements to Amtrak’s
                                           economy, efficiency, and effectiveness; preventing and
                                           detecting fraud, waste, and abuse; and providing Congress,
                                           Amtrak management and Amtrak’s Board of Directors with
                                           timely information about problems and deficiencies relating to
                                           Amtrak’s programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony


To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                                           Web:            www.amtrakoig.gov/hotline
                                           Phone:          800-468-5469


                                           Tom Howard
                                           Deputy Inspector General

                                           Mail:           Amtrak OIG
                                                           10 G Street, NE, 3W-300
                                                           Washington, DC 20002

                                           Phone:          202-906-4600

                                           Email:          Tom.Howard@amtrakoig.gov




     Amtrak Office of Inspector General | Semiannual Report to Congress, Number 48 | April 1, 2013–September 30, 2013   |   45
www.amtrakoig.gov
             National Railroad Passenger Corporation
                     Office of Inspector General
    10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                        www.amtrakoig.gov


Amtrak is a registered service mark of the National Railroad Passenger Corporation
